Audit Report




OIG-11-021
Audit of the Federal Financing Bank’s Fiscal Years 2010 and
2009 Financial Statements


November 12, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 12, 2010


            MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                  Eric M. Thorson
                                   Inspector General

            SUBJECT:               Audit of the Federal Financing Bank’s Fiscal Years 2010 and
                                   2009 Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
            financial statements for fiscal years 2010 and 2009, as required by the
            Government Corporation Control Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2010 and 2009 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control and its operations that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

KPMG LLP also issued a management letter dated November 10, 2010, discussing
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 10, 2010, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a
member of your staff may contact Marla A. Freedman, Assistant Inspector General
for Audit, at (202) 927-5400.

Attachment

cc:   Richard Gregg
      Vice President, FFB

      Joseph I. Lieberman, Chairman
      Committee on Homeland Security
      and Governmental Affairs

      Susan M. Collins, Ranking Member
      Committee on Homeland Security
      and Governmental Affairs

      Edolphus Towns, Chairman
      Committee on Oversight and
      Government Reform

      Darrell Issa, Ranking Member
      Committee on Oversight and
      Government Reform
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2010 and 2009

(With Independent Auditors’ Report Thereon)
                                      FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report                                                  6

Financial Statements                                                          7

Notes to Financial Statements                                                10

Other Supplementary Information – Schedule 1                                 21

Independent Auditors’ Report on Internal Control over Financial Reporting    22

Independent Auditors’ Report on Compliance and Other Matters                 24
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2010 and 2009



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and direction
of the Secretary of the Treasury. The Congress created the Bank in 1973, at the request of the U.S. Department of
the Treasury (Treasury). The Bank actively borrows from Treasury and lends to Federal agencies and private
borrowers that have Federal guarantees. The Bank also has a debt obligation to the Civil Service Retirement and
Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate such
borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done in ways that
least disrupt private markets. To accomplish this mission, the Bank exercises its broad statutory authority to
purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the sale or
placement of credit market instruments, including agency securities, guaranteed obligations, participation
agreements, and the sale of assets. This principle is applied in a manner consistent with the Federal Financing
Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed programs entailing large
numbers of relatively small loans in which local origination and servicing are an integral part of the program are
excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with program
requirements. The Bank is capable of providing a lending rate for any amount required and for nearly any
maturity. The rates charged by the Bank for terms such as prepayment provisions, forward interest rate
commitments, and pass-through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of funds by
agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have such a need. In
no case will funds provided by the Bank be invested in private credit instruments or be used to speculate in the
market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury, who as
provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic Finance; the General
Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in parentheses):
the Under Secretary for Domestic Finance (President); the General Counsel (General Counsel); the Assistant
Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary (Vice President); the Deputy
Assistant Secretary for Government Financial Policy (Vice President and Treasurer); and the Director, Office of
Federal Lending (Secretary and Chief Financial Officer). A delegation by the Bank President authorizes any
Bank Vice President, in consultation with any other Bank officer, to exercise the powers of the Presidency.

                                                        1
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2010 and 2009



The staff of the Bank is organized into three units: loan administration, loan accounting, and computer support.
The loan administration and accounting managers and the Chief Information Officer (CIO) report to the Chief
Financial Officer (CFO). The loan administration manager is responsible for the loan administration unit, which
includes the duties and responsibilities associated with credit analysis, loan origination, loan structuring, and
customer service. The loan accounting manager heads a team of professionals responsible for loan
disbursements, repayments, accounting, and financial reporting. The CIO is responsible for a team of information
systems professionals and contractors that conduct in-house software development and maintain the Bank’s
Oracle-based, mission-critical enterprise application. That application provides systems support for the loan
administration and accounting functions.

Loan Programs Activity

Title XVII of the Energy Policy Act of 2005 created a loan guarantee program to be administered by the
Department of Energy (DOE) for innovative technologies. The Bank provides financing commitments for the
loan guarantee programs by entering into a Program Financing Agreement with the DOE. In fiscal year 2010,
the Bank entered into two note purchase agreements that commit the Bank to purchase notes issued by Kahuku
Wind Power, LLC, and Stephentown Regulation Services, LLC, backed by the full faith and credit of the U.S.
Government by the Secretary of Energy. The maximum principal amounts of the notes are $117,331 thousand
and $43,137 thousand, respectively.

The Secretary of Energy is authorized to issue loans under Section 136 of the Energy Independence and Security
Act of 2007, as amended by section 129 of Division A of the Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act of 2009, through the Advanced Technology Vehicles Manufacturing Loan
Program. Under the program, the Secretary of Energy may make loans to automobile and automobile part
manufacturers to finance the cost of reequipping, expanding, or establishing manufacturing facilities in the
United States to produce advanced technology vehicles or qualified components, and for associated engineering
integration costs. In fiscal year 2010, the bank entered into three note purchase agreements that commit the Bank
to purchase notes issued by Fisker Automotive, Inc., Nissan North America, Inc., and Tesla Motors, Inc., backed
by the full faith and credit of the U.S. Government by the Secretary of Energy. The maximum principal amounts
of the notes are $528,660 thousand, $1,447,500 thousand and $465,047 thousand, respectively.




                                                       2
                                        FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2010 and 2009



Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably less
interest each year on certain RUS loans that it holds than it is contractually entitled to receive. The shortfall in
interest received by the Bank has resulted in substantial deficits in the past. The cumulative losses from interest
credits taken by the RUS, beyond losses that were extinguished by appropriation in a previous year, totaled
$1,671,824 thousand through September 30, 2010. The interest shortfall is recorded on the statement of
operations and changes in net position as a legislatively mandated interest credit (contra-revenue to interest on
loans).

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings Act, the Consolidated Omnibus Budget Reconciliation Act of 1985, and the Federal
Credit Reform Act of 1990 included provisions that have acted as prohibitions and disincentives against the Bank
financing certain loans that are 100 percent guaranteed by Federal agencies.

Section 6102 of the Food, Conservation, and Energy Act of 2008 reinstated the direct loan program for the RUS
Electric Program, eliminating the borrower’s right to have loans financed by the Bank. Eventually, RUS
anticipates financing new electric loans through a direct loan program instead of financing the loans through the
Bank.

New Borrowing Agreement

Effective in fiscal year 2010, the Bank executed a new agreement with the Secretary of the Treasury to borrow
funds used for certain guaranteed loans that require the guaranteeing federal agencies to comply with the Federal
Credit Reform Act (FCRA) (2U.S.C. 661(d)(3)). As a result, the interest rate, interest payable, and interest
expense for borrowings from Treasury that are used to fund certain guaranteed loans subject to FCRA are
determined annually by the borrowing agencies using the FCRA and Office of Management and Budget
guidelines.

Impact of Economic Conditions

Current economic conditions have had an impact on programs that borrow from the Bank. Certain programs have
repaid their loans with the Bank, while other borrowers have increased their borrowing activities with the Bank.

Loan principal and interest outstanding are backed by the full faith and credit of the U.S. Government, except for
loans to the United States Postal Service (USPS). USPS is an independent establishment of the executive branch
of the U.S. Government, which borrows from the Bank to finance its capital improvements and defray operating
expenses. The USPS had a fiscal year 2010 deficit due to a decline in mail volume, higher retiree health benefit
costs, and cost of living adjustments. The Bank closely monitors USPS and the related Congressional activities.
The Bank has not incurred and does not expect to incur any credit-related losses on its loans.




                                                         3
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                          September 30, 2010 and 2009



Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended September 30,
2010. Interest on loans of $2,354,327 thousand for the fiscal year ended September 30, 2010 increased compared
to the interest on loans of $2,002,157 thousand for the fiscal year ended September 30, 2009 primarily due to the
increase in short-term borrowing activity by the USPS and increased borrowing activity by DOE during the year.
The legislatively mandated interest credits reduced interest income by $271,461 thousand and $201,087 thousand
for the fiscal years ended September 30, 2010 and 2009, respectively, and are related to RUS “cushion of credit”
loans. Revenue from servicing loans of $2,332 thousand for the fiscal year ended September 30, 2010 decreased
from $2,475 thousand for the fiscal year ended September 30, 2009 due to the maturity of the loans being
serviced.

Interest on borrowings of $1,630,511 thousand for the fiscal year ended September 30, 2010 increased from the
interest on borrowings of $1,354,593 thousand for the fiscal year ended September 30, 2009 primarily due to the
increase in borrowing activities and the change in repayment structure resulting from the new borrowing
agreement with the Secretary of the Treasury. After administrative expenses of $5,737 thousand, net income of
$449,496 thousand for the fiscal year ended September 30, 2010 increased from the net income of $444,247
thousand for the fiscal year ended September 30, 2009. In fiscal year 2010, the Bank prepaid the borrowings
from Treasury that funded the loans originated in fiscal year 2009 to the financing accounts of the DOE and re-
borrowed the funds based on the FCRA. The transaction resulted in a prepayment loss of $4,235 thousand,
reported as a loss on extinguishment of borrowings treated as capital transactions.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $1,671,095 thousand at September 30, 2010, which
represents an increase from the September 30, 2009 balance of $786,370 thousand. The increase is due to the net
income for fiscal year 2010.

The loan portfolio (loans receivable) decreased $2,256,560 thousand from $61,564,851 thousand at
September 30, 2009 to $59,308,291 thousand at September 30, 2010. The change is primarily the result of a
decrease in short-term loans of $8,283,357 thousand to the National Credit Union Administration’s Central
Liquidity Facility, partially off-set by an $1,800,000 thousand increase in short-term loans to the U. S. Postal
Service, $2,023,363 thousand increase in new loans to the Department of Energy, and other loan increases. The
Bank’s net position increased to $3,793,194 thousand at September 30, 2010 from $3,347,933 thousand at
September 30, 2009 primarily as a result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed, except for those to the USPS. The Bank does not
maintain a reserve for loan losses as no future credit-related losses are expected.

The Bank’s borrowings decreased by $1,868,359 thousand due to a decline in lending activities.




                                                        4
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2010 and 2009



Performance Highlights

During fiscal year 2010, the Bank processed 1,188 new loan requests. The interest rate was set or reset on 2,188
loans in fiscal year 2010 for new loans and maturity extensions. The Bank processed 79 prepayments and 29,057
loan payments in fiscal year 2010.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, as of June 2010.
Additionally, in fiscal year 2009, a private contractor performed a certification and accreditation of the Bank’s
enterprise management system, known as the Loan Management Control System, which is effective for three
years.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully comply
with the requirements for agency internal accounting and administrative control systems, providing reasonable
assurance that they are achieving the intended objectives.




                                                       5
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389



                                          Independent Auditors’ Report

Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the accompanying statements of financial position of the Federal Financing Bank (the
Bank) as of September 30, 2010 and 2009, and the related statements of operations and changes in net
position and cash flows for the years then ended (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of the Bank’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2010 and 2009, and the results of its
operations and its cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Management’s Discussion and Analysis and other supplementary
information included in Schedule 1 is presented for purposes of additional analysis and is not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 10,
2010, on our consideration of the Bank’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 10, 2010

                                                                       6
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                            FEDERAL FINANCING BANK
                                            Statements of Financial Position
                                             September 30, 2010 and 2009
                                                 (Dollars in thousands)


                                   Assets                                        2010            2009
Funds with U.S. Treasury                                                   $    1,671,095         786,370   
Investments held-to-maturity (fair value of $492,566 and                          492,614         492,037   
   $492,062, notes 3 and 6)
Loans receivable (notes 4, 6 and 9)                                            59,308,291      61,564,851   
Accrued interest receivable                                                       155,689         226,591   
Advances to others                                                                    106             269   
               Total assets                                                $   61,627,795      63,070,118   
                    Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                     $   57,440,112      59,259,551   
      Plus unamortized premium                                                    180,007         228,927   
               Total borrowings (notes 5, 6 and 8)                             57,620,119      59,488,478   
   Accrued interest payable                                                       214,275         233,647   
   Other liabilities                                                                  207              60   
               Total liabilities                                               57,834,601      59,722,185   
Loan commitments (note 10)
Net position (note 7)                                                           3,793,194       3,347,933   
               Total liabilities and net position                          $   61,627,795      63,070,118   


See accompanying notes to financial statements.




                                                            7
                                      FEDERAL FINANCING BANK
                            Statements of Operations and Changes in Net Position
                                 Years ended September 30, 2010 and 2009
                                            (Dollars in thousands)


                                                                            2010           2009
Revenue and financing sources:
  Interest on loans                                                  $     2,354,327      2,002,157   
  Less legislatively-mandated interest credit                               (271,461)      (201,087)  
              Net interest on loans                                        2,082,866      1,801,070   
  Interest on investments                                                        546          1,649   
  Revenue from servicing loans                                                 2,332          2,475   
              Total revenue                                                2,085,744      1,805,194   
Expenses:
  Interest on borrowings                                                   1,630,511      1,354,593   
  Administrative expenses                                                      5,737          6,354   
              Total expenses                                               1,636,248      1,360,947   
              Net income                                             $       449,496       444,247   
Net position:
  Beginning of year                                                  $     3,347,933      2,903,686   
  Net income                                                                 449,496        444,247   
  Loss on extinguishment of borrowings treated as
     capital transactions (note 8)                                            (4,235)             —    
  End of year (note 7)                                               $     3,793,194      3,347,933   


See accompanying notes to financial statements.




                                                       8
                                          FEDERAL FINANCING BANK
                                               Statements of Cash Flows
                                        Years ended September 30, 2010 and 2009
                                                 (Dollars in thousands)


                                                                                      2010              2009
Cash flows from operations:
  Net income                                                                $          449,496           444,247   
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on borrowings                                          (48,920)          (59,026)  
        Capitalization of interest receivable                                           (1,172)             (210)  
        Capitalization of interest payable                                             180,017           172,466   
        Decrease (increase) in accrued interest receivable                              70,902           (43,707)  
        Decrease (increase) in advances to others                                          163              (177)  
        (Decrease) increase in accrued interest payable                                (19,372)           28,113   
        (Decrease) increase in other liabilities                                           147              (120)  
               Net cash provided by operations                                         631,261           541,586   
Cash flows from investing activities:
  Investment purchases                                                                    (577)         (462,502)  
  Loan disbursements                                                              (227,292,664)     (213,610,805)  
  Loan collections                                                                 229,550,396       190,523,032   
               Net cash provided by (used in) investing activities                   2,257,155       (23,550,275)  
Cash flows from financing activities:
  Borrowings                                                                       228,200,921       214,113,300   
  Repayments of borrowings                                                        (230,204,612)     (191,062,634)  
               Net cash (used in) provided by financing activities                  (2,003,691)       23,050,666   
               Net increase in cash                                                    884,725            41,977   
Funds with U.S. Treasury – beginning of the period                                     786,370           744,393   
Funds with U.S. Treasury – end of the period                                $        1,671,095           786,370   
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                                 $        1,517,775         1,212,739   
Supplemental schedule of noncash investing and financing activities:
  Loss on early extinguishment of borrowings
     treated as capital transactions (note 8)                              $            (4,235)                —    


See accompanying notes to financial statements.




                                                           9
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U. S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U. S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with the
      approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            establishment of accounting principles generally accepted in the United States of America with
            respect to the financial statements of Federal government entities. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those Federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            investments when they are made and investment redemptions when the proceeds are received. The
            Bank recognizes borrowings when they are received and repayments when they are made. In
            addition, the Bank recognizes interest on loans, interest on investments, and revenue from servicing
            loans when they are earned and recognizes interest on borrowings and expenses when they are
            incurred.



                                                       10                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2010 and 2009
                                        (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statements of cash flows, the
      funds with Treasury are considered cash.

(d)   Investments
      The Bank’s investments consist of investments in U. S. Treasury securities for the Home Ownership
      Preservation Entity (HOPE) Fund. The securities are categorized as held to maturity, because the
      Bank has the ability and intent to hold the securities until maturity. The securities are recorded at par
      value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the Federal agencies. When a Federal agency has to honor
      its guarantee because a private sector borrower defaults, the Federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The U.S.
      Postal Service is an independent establishment of the executive branch of the U.S. Government. The
      Bank has not incurred and does not expect to incur any credit-related losses on its loans.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank. Under amendments to the Federal Credit
      Reform Act, effective October 1, 1998, while the Bank is permitted to charge a spread on new
      lending arrangements with government-guaranteed borrowers, the margin is not retained by the
      Bank, but rather is retained by the loan guarantor. In the event that this results in the Bank being
      unable to fund its administrative expenses related to these loans, the Federal Credit Reform Act, as
      amended, states that the Bank may require reimbursement from loan guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU), and Veteran Administration Transitional
      Housing (VATH) have the option of deferring payments of interest on their loans until future
      periods. When GSA, HBCU, or VATH elect, in advance, to defer interest payments, the accrued
      interest is recorded as capitalized interest receivable and added to the respective loan balance by the
      Bank. The Bank correspondingly capitalizes the interest payable on its related borrowings.




                                                  11                                              (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2010 and 2009
                                        (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective-interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Interest on Borrowings from Treasury to Fund Amounts Treated as Lending to Financing
      Accounts
      The interest on borrowings from Treasury is based on the daily Treasury New Issue Curve (TNIC)
      for all borrowings, except for borrowings used to fund certain guaranteed loans that require the
      guaranteeing federal agencies to comply with the Federal Credit Reform Act (FCRA) (2U.S.C.
      661(d)(3)). The interest rate, interest payable, and interest expense for borrowings from Treasury
      that are used to fund certain guaranteed loans subject to FCRA is determined annually by the
      borrowing agencies using the FCRA and Office of Management and Budget guidelines.

(j)   Legislatively Mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from the U.S. Department of Agriculture’s Rural
      Utilities Services (RUS). RUS used the funds received from the Bank to issue loans to nonfederal
      entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
      940c – Cushion of Credit Payments Program) that required RUS to develop and promote a program
      to encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(k)   Revenue from Servicing Loans
      The Bank charges certain RUS borrowers a loan service fee that is reported as revenue from
      servicing loans on the statements of operations and changes in net position. The Bank’s loan
      servicing fee is equal to one-eighth of one percent more than the contractual interest rate with
      Treasury.

(l)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as chairman of the Board of Directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions, and its legal counsel is the
      General Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it
                                                  12                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009
                                              (Dollars in thousands)



            provides. The amounts of such reimbursements are reported as administrative expenses in the
            statements of operations and changes in net position.

      (m)   Net Position
            The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
            appropriations from Congress to make up for accumulated losses that will not be met by income.

      (n)   Loan Commitments
            The Bank recognizes loan commitments when the Bank and the other parties fully execute the
            promissory notes and reduces loan commitments when the Bank issues loans or when the
            commitments expire. Most obligations of the Bank give a borrower the contractual right to a loan or
            loans immediately or at some point in the future. The Bank limits the time available for a loan under
            an obligation, where applicable.

      (o)   Management’s Use of Estimates
            The preparation of financial statements in conformity with GAAP requires management to make
            estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
            contingent assets and liabilities at the date of the financial statements and the reported amounts of
            income and expenses during the reporting period. Actual results could differ from those estimates.

      (p)   Tax-Exempt Status
            The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
            1973 (12 USC 2281).

      (q)   Related Parties
            The Bank conducts most of its financial transactions with other Federal entities, and therefore, the
            financial statement balances that represent transactions with other Federal entities include all assets;
            liabilities, except borrowings from the public of $10 as of September 30, 2010 and 2009; revenues;
            and expenses.

(2)   Future Accounting Pronouncements
      In January 2010, the FASB issued Accounting Standards Update (ASU) No. 2010-06, Improving
      Disclosures about Fair Value Measurements. The ASU requires disclosure of gross activity in Level 3 of
      the fair value hierarchy and adds a requirement to separately disclose the amounts of significant transfers
      in and out of Level 1 and 2 of the fair value hierarchy, describing the reasons for the transfers. The ASU
      also clarifies existing disclosure requirements regarding the level of disaggregation of fair value
      measurements and inputs, and valuation techniques. The disclosures are effective for reporting periods
      beginning after December 15, 2009. The Bank will adopt the applicable provisions of the FASB ASU No.
      2010-06 in fiscal year 2011.




                                                        13                                             (Continued)
                                         FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009
                                             (Dollars in thousands)



(3)   Investments Held to Maturity (the HOPE bond transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for Homeowners
      Act of 2008 and the Bank will purchase the HOPE bonds issued by the Secretary. The HOPE bonds
      purchased by the Bank are reported as investments held-to-maturity, and the related interest receivable is
      reported as accrued interest receivable in the Bank’s statements of financial position. The interest rate is
      0.153% and 0.183% as of September 30, 2010 and 2009, respectively, with floating interest rates reset
      quarterly. The bonds have 30-year maturity dates starting on August 27, 2038 and ending on July 16, 2040.

      The carrying amount, unrealized holding gains, and fair value of the HOPE bonds at September 30, 2010
      and 2009 were as follows:

                                                                           Unrealized
                  September 30, 2010                      Carrying           holding          Fair
       Investments held to maturity                       amount           (loss) gains      value
        U.S. Treasury Nonmarketable Securities –
          HOPE Bonds                                 $    492,614             (48)          492,566
                                 Total               $    492,614             (48)          492,566

                  September 30, 2009                      Carrying         Unrealized         Fair
       Investments held to maturity                       amount          holding gains      value
        U.S. Treasury Nonmarketable Securities –
          HOPE Bonds                                 $    492,037              25           492,062
                                 Total               $    492,037              25           492,062

      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bonds.

(4)   Loans Receivable
      Loans receivable represent the outstanding balances being treated as loans to agencies. The Bank has the
      ability and intends to hold loans receivable until maturity or payoff. At September 30, 2010, the Bank had
      outstanding loans receivable of $59,308,291, with interest rates ranging from 0.152% to 15.325%, and
      maturity dates from October 1, 2010 to July 17, 2045. At September 30, 2009, the Bank had outstanding
      loans receivable of $61,564,851, with interest rates ranging from 0.030% to 16.183%, and maturity dates
      from October 1, 2009 to July 17, 2045.




                                                         14                                           (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009
                                             (Dollars in thousands)



      Loans receivable at September 30, 2010 and 2009, consist of the following:

                                    Agency                                    2010                2009
      Rural Utilities Service, Department of Agriculture              $    28,905,983           25,391,164
      U.S. Postal Service                                                  12,000,000           10,200,000
      Credit Liquidity Fund, National Credit Union
        Administration                                                     10,100,705           18,384,062
      Department of Energy                                                  2,931,043              907,680
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership                                2,357,900            3,047,025
      General Services Administration                                       1,973,049            2,037,215
      Historically Black Colleges and Universities, Department
        of Education                                                          613,870              453,298
      Foreign Military Sales, Department of Defense                           417,255              545,376
      Veteran Administration Transitional Housing Program                       4,836                4,889
      Small Business Administration                                             2,130                5,379
      Federal Railroad Administration, Department of
        Transportation                                                          1,520                 1,786
      Low Rent Public Housing, Department of
        Housing and Urban Development                                                –             586,977
                    Total loans receivable                            $    59,308,291           61,564,851

      The loans receivable due within one year are $20,771,654 and $25,709,953 as of September 30, 2010 and
      2009, respectively.

(5)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding loans
      made by the Bank and bear interest at the respective rate as determined by the Secretary for all borrowings,
      except borrowings used to fund certain guaranteed loans based on the FCRA. For certain borrowings
      based on FCRA, the interest rate is determined annually by the borrowing agencies using the FCRA and
      Office of Management and Budget guidelines. The Bank’s borrowings are repayable on demand, except
      for loans with fixed-price call options in the no call period.

      At September 30, 2010, the Bank had $44,214,738 of Treasury borrowings for non-FCRA related loans,
      with interest rates ranging from 0.081% to 9.376%, and maturity dates from October 1, 2010 to July 17,
      2045. Additionally, at September 30, 2010, the Bank had $2,986,374 of Treasury borrowings used to fund
      guaranteed loans based on the FCRA with interest rates ranging from 2.680% to 4.723%, and a maturity
      date of September 30, 2050. At September 30, 2009, the Bank had Treasury borrowings of $47,338,301,
      with interest rates ranging from 0.020% to 10.83%, and maturity dates from October 1, 2009 to July 17,
      2045.


                                                       15                                            (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2010 and 2009
                                              (Dollars in thousands)



      Additionally, at September 30, 2010 and 2009, the Bank had borrowings of $10,238,990 and $11,921,240
      and an associated unamortized premium of $180,007 and $228,927, respectively, from the Civil Service
      Retirement and Disability Fund (CSR&DF), which is administered by the Office of Personnel
      Management (OPM). At September 30, 2010, these borrowings were at stated interest rates ranging from
      4.625% to 5.250%, effective interest rate of 4.125%, and with maturity dates ranging from June 30, 2011
      to June 30, 2019. At September 30, 2009 these borrowings are at stated interest rates ranging from 4.625%
      to 5.250%, effective interest rate of 4.125%, and with maturity dates ranging from June 30, 2010 to
      June 30, 2019. Borrowings from the public amounted to $10 at September 30, 2010 and 2009.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2010 are as follows:


                          Repayment date                                         Amount
                              2011                                        $     21,479,297
                              2012                                               2,203,392
                              2013                                               1,528,402
                              2014                                               1,842,537
                              2015                                               1,153,549
                              2016 and thereafter                               29,232,935
                                         Total principal payments               57,440,112
                                         Plus unamortized premium                 180,007
                                         Total borrowings                 $     57,620,119

(6)   Fair Value of Financial Instruments and Interest Rate Volatility
      (a)   Fair Value Hierarchy
            The accounting standards establish a fair value hierarchy that prioritizes the inputs to valuation
            techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
            prices in active markets for identical assets or liabilities (Level 1 measurements) and the lowest
            priority to measurements involving significant unobservable inputs (Level 3 measurements). The
            three levels of the fair value hierarchy are as follows:

            •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
                that the Bank has the ability to access at the measurement date.
            •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
                the asset or liability, either directly or indirectly.
            •   Level 3 inputs are unobservable inputs for the asset or liability.

            The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
            based on the lowest level input that is significant to the fair value measurement in its entirety.

                                                        16                                             (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2010 and 2009
                                        (Dollars in thousands)



      The Bank does not hold any financial instruments that are measured at fair market value on a
      recurring basis or for which the fair value option has been elected at September 30, 2010.

      All the fair values shown in this note are performed using Level 2 inputs at September 30, 2010. The
      Bank’s fair value measurements maximize the use of observable inputs and do not use significant
      unobservable inputs (Level 3).

      The financial statements as of and for the year ended September 30, 2010 do not include any
      nonrecurring fair value measurements relating to assets or liabilities for which the Bank has adopted
      the provisions of FASB ASC 820.

(b)   Fair Value of Financial Instruments
      The following table presents the carrying amounts and estimated fair values of the Bank’s financial
      instruments at September 30, 2010 and 2009. The fair value of a financial instrument is the amount
      that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
      market participants at the measurement date.

                                                         2010                                 2009
                                                                Fair value
                                             Carrying            (Level 2         Carrying             Fair
                                             amount               inputs)         amount               value
      Financial assets:
       Investments held to maturity     $      492,614              492,566         492,037             492,062
       Loans receivable                     59,308,291           64,470,446      61,564,851          65,765,105
      Financial liabilities:
      Borrowings                        $ 57,620,119             61,525,613      59,488,478          61,626,247

      The carrying amounts shown in the table are included in the statements of financial position under
      the indicated captions.

      The fair values of the financial instruments shown in the above table as of September 30, 2010
      represent management’s best estimates of the amounts that would be received to sell those assets or
      that would be paid to transfer those liabilities in an orderly transaction between market participants
      at that date. Those fair value measurements maximize the use of observable inputs.

      The following methods and assumptions were used to estimate the fair value of each class of
      financial instruments:

            Funds with U.S. Treasury: The carrying amount approximates fair value because of the liquid
            nature of the funds with Treasury.
            Loans Receivable and Investments held-to-maturity: The fair value for the majority of the
            loan portfolio (approximately 99.6%) and investments held-to-maturity is determined using

                                                  17                                              (Continued)
                                 FEDERAL FINANCING BANK
                                   Notes to Financial Statements
                                   September 30, 2010 and 2009
                                       (Dollars in thousands)



            discounted cash flow analyses based on contractual repayment terms. The Bank’s loans
            receivable, investments held-to-maturity, and interest are backed by the full faith and credit of
            the U.S. Government, except for loans to the U.S. Postal Service. As such, the Bank’s assets
            are the equivalent of Treasury securities. The discount rates used in the loans receivable and
            investment analysis are based on interest rates currently being offered by the Bank on loans of
            similar maturity and other characteristics, plus 25 basis points added as a factor to account for
            the liquidity premium. The Bank obtains the discount rates from the daily TNIC, which is
            created daily with an interest rate for each day from 1 month to 30 years, based on the bid
            yields that day for Treasury securities traded in the public markets. The TNIC yields represent
            Treasury’s best estimate of its own cost of borrowing for any given term on that business day.
            For the rest of the loan portfolio (approximately 0.4%), the Bank’s borrowers purchased a call
            option at the loan origination date. For the loans that have aged past the first available call
            date, the fair value is determined as the remaining balance plus the fixed call premium in effect
            at the time of valuation. For the loans with call options that have not reached the first call
            date, the fair value is determined by evaluating each loan through a call option model using the
            interest rates from the daily TNIC plus 25 basis points and the same terms in effect for a new
            comparable loan.

            Borrowings: The fair value for all borrowings, except for borrowings used to fund certain
            guaranteed loans based on the FCRA, is determined using discounted cash flow analyses
            based on contractual repayment terms. The discount rates used in the borrowings analysis are
            based on interest rates of current borrowings from Treasury using similar maturity and other
            characteristics, plus 25 basis points added as a factor to account for the liquidity premium. The
            Bank obtains the discount rates from the daily TNIC.
            Fair value for borrowings used to fund certain guaranteed loans based on the FCRA is
            determined based on an asset-backed securities model, for which the Bank does not expect to
            exercise the embedded call option. The asset-backed securities model reflects the cash flow
            profile of the respective cohorts and is discounted using interest rates from the daily TNIC,
            plus 25 basis points added as a factor to account for the liquidity premium.
            Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other
            Liabilities: The carrying amount of advances to others, accrued interest receivable, accrued
            interest payable, and other liabilities approximate fair value as they represent the amounts
            expected to be realized or paid and are current assets and liabilities.
(c)   Interest Rate Volatility
      The fair value of the Bank’s loans receivable, investments, and borrowings changes in response to
      the interest rate volatility that results from the current economic conditions, market perception, and
      expectations. However, because the interest rates and maturities of loans receivable, investments,
      and borrowings are very similar, the fair market values of both assets and liabilities increase or
      decrease in the same direction and in similar amounts.



                                                 18                                             (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2010 and 2009
                                             (Dollars in thousands)



(7)   Net Position
      At September 30, 2010 and 2009, the net position includes the following:

                                                                                 2010               2009
      Transfers to Treasury                                            $    (1,682,847)          (1,682,847)
      Cumulative results of operations and gains/losses on
        early extinguishment of borrowings treated as capital
        transactions                                                         5,476,041           5,030,780
                     Net position                                      $     3,793,194           3,347,933

      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(8)   Loss on Extinguishment of Borrowings Treated as Capital Transactions
      In fiscal year 2010, the Bank made early repayments to the Treasury totaling $907,680, resulting in a net
      loss of $4,235. The repayment represents a capital transaction, and the loss with Treasury is reported as a
      loss on extinguishment of borrowings treated as capital transaction on the statements of operations and
      changes in net position. The Bank did not make any early repayment of debt in fiscal year 2009.

(9)   Capitalized Interest
      Capitalized interest receivable was approximately $8,524 and $12,479, and the related capitalized interest
      payable was $392,120 and $231,154 as of September 30, 2010 and 2009, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statements of financial position.




                                                       19                                            (Continued)
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2010 and 2009
                                            (Dollars in thousands)


(10) Loan Commitments
     The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
     agreements executed between the parties. The loan commitments are not reported on the statements of
     financial position and generally have fixed expiration dates or other termination clauses. Since many of the
     loan commitments are expected to expire without being completely drawn upon, the total loan commitment
     amounts do not necessarily represent future cash requirements. The Bank uses the same credit policies in
     making loan commitments as it does for loans receivable reported on the statements of financial position.
     The Bank funds the loan commitments with its borrowing authority from the Secretary. There is no
     exposure or credit risk related to these commitments.

     The contract amounts and remaining loan commitments by program agency as of September 30, 2010, are
     as follows:

                                                                         Contract           Remaining loan
                               Agency                                    amounts             commitments

      Department of Education – FFEL Conduit                      $       60,000,000            60,000,000
      National Credit Union Administration – CLF                          35,000,000            34,995,000
      Rural Utilities Service, Department of Agriculture                  21,993,865             9,497,725
      U.S. Postal Service                                                 12,525,000             3,000,000
      Department of Energy                                                 9,073,675             6,142,632
      Historically Black Colleges and Universities,
        Department of Education                                              606,475               214,829
      General Services Administration                                        163,200                 8,988

                    Total commitments                             $     139,362,215            113,859,174

(11) Subsequent events
     The Bank has evaluated subsequent events from the statements of financial position date through
     November 10, 2010, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




                                                      20
                                     FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2010 and 2009
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS),
a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue
loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed legislation
(i.e., 7 USC Sec. 940c Cushion of Credit Payments Program) that required RUS to develop and promote a
program to encourage private utility companies to voluntarily make deposits into cushion of credit
accounts established within RUS. The legislation also indicated that a private utility company may reduce
the balance of its cushion of credit account only if the reduction is used to make scheduled payments on
loans received from RUS. In accordance with the legislation, the private utility companies accrue interest at
a rate of 5% per annum or the weighted average rate of the certificates of beneficial ownership on cash
deposited into the cushion of credit accounts with RUS. The legislation also indicated that RUS shall
receive an interest credit from the Bank equal to the amount of interest RUS pays to the private utility
companies. The Bank records the interest credit in the period the cost is incurred as a legislatively
mandated interest credit (contra-revenue to interest on loans) in the statements of operations and changes in
net position. As of September 30, 2010, the outstanding principal balance of the 11 RUS loans subject to
the certificates of beneficial ownership (CBO) legislation totaled $2,357,900, with interest rates ranging
from 7.755% to 15.325%, and maturity dates ranging from 2011 to 2021. In October 1998, the Bank
received an appropriation that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2010 are as follows:

                                   Fiscal year                  Interest credits

                          1988–2005                       $         1,686,881
                          2006                                        234,266
                          2007                                         97,830
                          2008                                         97,998
                          2009                                        201,087
                          2010                                        271,461

                          Total interest credits                    2,589,523

                          Less appropriation                        (917,699)

                          Total                           $         1,671,824




                                                     21
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2010 and 2009 and the related statements of operations and changes in net position and cash
flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated November 10, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Bank’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Bank’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the Bank’s internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                                                      22
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
We noted certain matters that we have reported to Bank management in a separate letter dated
November 10, 2010.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2010




                                                  23
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2010 and 2009, and the related statements of operations and changes in net position and
cash flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our
report thereon dated November 10, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable
to the Bank. However, providing an opinion on compliance with those provisions was not an objective of
our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 10, 2010




                                                                     24
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
